U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Center for Biological Diversity, et al. v. Chad Wolf,
Acting Secretary of Homeland Security, et al,
S.Ct. No. 19-975

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on January 31, 2020. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government's response is now due on April 16, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 18, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0975
CENTER FOR BIOLOGICAL DIVERSITY, ET AL.
CHAD WOLF, ACTING SEC. OF HOMELAND
SECURITY, ET AL.

MATTHEW R. ARNOLD
EUBANKS & ASSOCIATES, LLC
1509 16TH ST. NW
WASHINGTON, DC 20036
843-718-4513
MATT@EUBANKSLEGAL.COM
ANTHONY T. ELISEUSON
ANIMAL LEGAL DEFENSE FUND
150 SOUTH WACKER DRIVE
SUITE 2400
CHICAGO, IL 60606
WILLIAM S. EUBANKS
EUBANKS & ASSOCIATES, LLC
2601 S. LEMAY AVENUE
UNIT 7-240
FORT COLLINS, CO 80525
970-703-6060
BILL@EUBANKSLEGAL.COM
KATHERINE A. MEYER
HARVARD LAW SCHOOL ANIMAL LAW &
POLICY PROGRAM
1585 MASSACHUSETTS AVENUE
CAMBRIDGE, MA 02138
KMEYER@LAW.HARVARD.EDU

EFREN C. OLIVARES
TEXAS CIVIL RIGHTS PROJECT
P0 BOX 219
ALAMO, TX 78516
956-787-8171
EFREN@TEXASCIVILRIGHTSPROJECT.ORG
DOANDL T. REHKOPF
REHKOPF LAW OFFICE
31 E. MAiN STREET
2ND FLOOR
ROCHESTER, NY 14614
585-434-0232
USMILITRYLAW@GMAIL.COM
JASON C. RYLANDER
DEFENDERS OF WILDLIFE
1130 17TH ST.,N.W.
WASHINGTON, DC 20036
202-682-9400
DEBORAH A. SIVAS
MILLS LEGAL CLINIC AT STANFORD LAW
CLINIC
CROWN QUADRANGLE
559 NATHAN ABBOTT WAY
STANFORD, CA 94305-8610
650-723-0325
DSIVAS@STANFORD.EDU
A. JEAN SU
CENTER FOR BIOLOGICAL DIVERSITY
1411 K STREET NW
SUITE 1300
WASHINGTON, DC 20005
202-849-8399
JSU@BIOLOGICALDIVERSITY.ORG

